V

No. 19-

?3H

Office o

3(n tfje

Supreme Court of tfje Mntteb States?
•''TUUONP1'*'

PHILIPPE BUHANNIC,
Petitioner
v.
\

SUPREME COURT OF THE STATE OF
NEW YORK - NEW YORK COUNTY
Respondent.

On Petition for an Extraordinary Writ of Mandamus
to the Supreme Court of New York — New York County
PETITION FOR EXTRAORDINARY
WRIT OF MANDAMUS

Philippe Buhannic
Petitioner Pro Se
Aventura 318
Route des Creux 100
1936 Verbier Switzerland
(917) 716-3542

December 23,2019

RECEIVED
DEC 31 2019

1

QUESTION PRESENTED
Whether the state courts, have the right based
on an obvious prejudice and bias to refuse due process
to a foreign Pro se litigant. The denial is so obvious,
persistent and omnipresent, the collusion so obvious
in this case that this court must correct this quickly
to have still a meaningful constitution as the rights
denied to the foreign Pro se litigant are constitutional
in nature: due process, right to appeal, etc.?

11

LIST OF PROCEEDINGS BELOW
New York Appellate Division, First Department
Case No. 653624/16-7543
Philippe Buhannic, et al., v. Tradingscreen, Inc., et al.,
Decision Date: November 12, 2019

Supreme Court of the State of New York County of
New York Commercial Division Part 60
Index No. 653624/2016
Philippe Buhannic and Patrick Buhannic, Individ­
ually and Derivatively on Behalfof Tradingscreen,
Inc., v. Tradingscreen Inc.; Pierre Schroeder; Piero
Grandi; Frank Placenti; Robert Trudeau; TCVVI,
L.P., and TCVMember Fund, L.P.
Decision Date: December 6, 2018
Related Proceedings in the United States District
Court, Southern District of New York
Buhannic v.
American Arbitrage Association (AAA) et al.
Case No: l:18-cv-02430-ER
Case Opening Date: March 19, 2018
Decision Date: September 27, 2019
Buhannic et al. v. Tradingscreen Inc. et al.
New York Southern District Court
Case No: l:18-cv-05371
Case Opening Date: June 14, 2018
Decision Date: September 27, 2019

Ill

Buhannic et al. v. Tradingscreen Inc. et al.
New York Southern District Court
Case No: l:18-cv-05372-ER
Case Opening Date: June 14, 2018
Decision Date: September 27, 2019
Buhannic v. Friedman
Case No: l:18-cv-05729-RA
Case Opening Date: June 25, 2018
Decision Date: February 7, 2019
Buhannic et al v. Tradingscreen Inc. et al
New York Southern District Court
Case No: l:17-cv-07993-ER
Case Opened: October 17, 2017
Decision Date: July 27, 2018
Buhannic et al v. Tradingscreen Inc. et al.
New York Southern District Court
Case No: l:18-cv-07997-ER
Case Opening Date: August 31, 2018
Decision Date: September 27, 2019
Buhannic v. Tradingscreen Inc.
New York Southern District Court
Case No: l:18-cv-09351-ER
Case Opening Date: October 12, 2018
Decision Date: No Decision

IV

Buhannic v. Tradingscreen, Inc. et al.
New York Southern District Court
Case No: l:18-cv-09447-ER
Case Opening Date: October 16, 2018
Decision Date: September 27, 2019

Buhannic v. Tradingscreen, Inc. et al.
New York Southern District Court
Case No: l:18-cv-10170-ER
Case Opening Date: November 1, 2018
Decision Date: September 27, 2019
Related Proceedings in the United States Court
of Appeals for the Second Circuit

Buhannic v. Friedman
United States Court of Appeals for the Second Circuit
No. 19-365
Decision Date: August 1, 2019
Buhannic v. Tradingscreen Inc.
United States Court of Appeals for the Second Circuit
No. 19-531
Decision Date: April 23, 2019
Buhannic v. Tradingscreen Inc.
No. 18-2274
United States Court of Appeals for the Second Circuit
Decision Date: October 11, 2019

V

TABLE OF CONTENTS
Page
QUESTION PRESENTED.............

1

LIST OF PROCEEDINGS BELOW

11

TABLE OF AUTHORITIES............

Xll

OPINIONS BELOW........................

1

JURISDICTION

1

CONSTITUTIONAL PROVISIONS

2

RULE 20 STATEMENT

3

A. Name and Function of Parties to Whom
Mandamus is Sought to be Directed...........

3

B. Petitioner seek the following relief:.............

3

C. Why Petitioners Have Filed for Relief in This
Court...............................................................

5

STATEMENT OF THE CASE

5

Preliminary Statement..................................... .

5

STATEMENT OF FACTS.......................................

7

ARGUMENT.............................................................

8

Point I. The Plaintiff Was Deprived of His
Due Process Right to a Fair, Efficient,
and Prompt Trial: After a Total of
Three Years of Absolutely No Action
the Judge Has Clearly Breached All
the Due Process Limits of Incompetence
and Due Process to Support Her Abso­
lute Collusion with the Defendants.....

8

VI

TABLE OF CONTENTS - Continued
Page
Point II. Refusal of Discovery Rights With­
out Any Justification While Allowing
the Discovery to the Other Side .............. 16
Point III. A Clear and Demonstrated Preju­
dice and Bias in Breach of the Fifth
Amendment................................................... 20
Point IV. Refusal of Modification of Com­
plaint Despite an Obvious Right to Do
24
It
Point V. A Systematic Doctoring of Trans­
cripts and Refusal by Administrative
Judge to Correct the Transcripts
Breaching Due Process Totally.............. 25
Point VI. A Systematic Ex-Parte Communi­
cation and Collusion Between the
- Defendants and the Judge Creating a
Due Process Issue on Impartiality, as
the Main Objective of the Court Was to
Put Mr. Buhannic in a Starved Situ­
ation in Terms of Resources....... :............ 28
Point VII. Judge Friedman Prohibited the
Plaintiffs to Present His Case Based on
His Supposed Accent and Allowed the
Defendants to Talk for Hours When
the Plaintiffs Were Fundamentally
Prohibited to Present His Case
29

-Vll

TABLE OF CONTENTS - Continued
Page
Point VIII. Judge Friedman by Not Acting
Has Allowed the Property of the Plain­
tiffs to Be Ransacked, Stolen, and Taken
with No Due Process in Clear Contra­
vention with the U.S. Constitution........ 30
Point' IX. Refusal of the Judge Recusal for
Partiality and Discrimination Ruled by
the Judge Being Judge and Party in
Flagrant Denial of Due Process........... . 31
Point X. It Is Important Also to Note That
the Presence of Morgan Lewis in the
Case Representing the Interests of the
Thieves Is Unacceptable. This Is Also a
Breach of Due Process.............................. 32
REASONS FOR GRANTING THE WRIT............. 34
CONCLUSION......................................................... 36

Vlll

TABLE OF CONTENTS - Continued
Page
APPENDIX TABLE OF CONTENTS
APPENDIX A
New York Opinions and Orders.................... la
Opinion of the New York Appellate Division,
First Department ( November 12, 2019)........ 2a
APPENDIX B
Order from Administrative Judge Denying
Correction of Doctored Transcripts......... 4a
Decision and Order of the Supreme Court of
New York (June 11, 2019)................................. 5a
APPENDIX C
Order of Refusal of Justice Friedman to
Recuse Herself Despite Her Bias and
Discrimination Against the Plaintiffs...... 8a
'

Decision and Order of the Supreme Court of
New York, County of New York, Commercial
Division Part 60 (December 6, 2018)............... 9a

APPENDIX D
Order of Refusal by Justice Friedman for
Plaintiffs to Amend Their Complaint........ 13a
~~

Order of Supreme Court of New York County
14a
(May 15, 2018)

IX

TABLE OF CONTENTS - Continued
Page
APPENDIX E
Preliminary Injunction Prohibiting Dilu­
tion of the Plaintiffs.................................... 15a
Order on Preliminary Injunction, Supreme
Court of New York, New York County
(March 2, 2017)................................................. 16a
APPENDIX F
Motion to Fix Doctored Transcripts to
Administrative Judge.... ......................... ...... 18a
Plaintiffs’ Motion for Correction of the Erro­
neous, Heavily Doctored and Faulty—Trans­
cript of March 12, 2019 (May 8, 2019)............ 19a
APPENDIX G
List of Depositions Items Requested by
Plaintiffs and Refused by Justice Fried­
man..................................................................... 23a
Buhannic v. TradingScreen:
Depositions Request......................................... 24a
APPENDIX H
Requests for Discovery and Inspection
— Never Even Answered....... ........................... 26a
Plaintiffs’ Fourth Request for Discovery and
Inspection (February 19, 2018)....................... 27a
APPENDIX I
Manipulation of Social Medias
by Defendants................................................. 58a

X

TABLE OF CONTENTS — Continued
Page
Manipulation of Social Medias....................... 59a
APPENDIX J
Proof of Manipulation of Discovery by
Defendants..................................................... 63a
Proof That the Defendants Have Hidden Most
of the Communications in Breach of Discovery
Rules.................................................................. 64a
APPENDIX J
Multiple Requests for Discovery in Court
with No Effect............................................
67a
Plaintiffs’ Third Request for Discovery and
Inspection (November 7, 2017)........................ 68a
Plaintiffs’ Second Request for Discovery and
Inspection (June 27, 2017)............................... 71a
APPENDIX K
Transcripts Heavily Doctored by Justice
Friedman in a Clear and Recorded Case on
Adeolu Sunday................................................ 74a
Transcript of the Adeolu Sunday Incident
Before Doctoring............................................... 75a
Transcript of the Adeolu Sunday Incident
Before Doctoring Clear Destruction of Evidence
by a Judge......................................................... 78a

XI

TABLE OF CONTENTS - Continued
Page
APPENDIX L
Motion to Correct Transcripts Heavily
Doctored by Justice Friedman on March
12, 2019.............................................................. 80a
Plaintiffs’ Motion for Correction of the Erro- .
neous, Heavily Doctored and Faulty Transcript
of March 12, 2019 (January 10, 2018)............ 81a
Transcript Doctored Twice, with No State­
ment Originally, Then Re-Including My State­
ment After Warning to Justice Friedman by
the Administrative Judge (March 19, 2019)... 88a
APPENDIX M
Proof of Morris Nicholls Lawyers of the
Plaintiffs Attacking Them While Being
Their Lawyer
101a
Proof that Ken Nachbar from Morris Nicholls
and David Poliak from Morgan Lewis Were
Attacking Mr. Buhannic They Were His
Lawyers...
102a
APPENDIX N
___OTSC on Manipulation of Discovery by
110a
the Defendants
Affidavit of Merit In Support of Order to
Show Cause (April 23, 2018)
111a

Xll

TABLE OF AUTHORITIES
Page
CASES
Berger v. UnitedStates, 255 U.S. 22,
65 L. Ed. 481, 41 S.Ct. 230 (1921)......20, 21, 22
Caperton v. A. T. Massey Coal Co.,
556 U.S. 868, 129 S.Ct. 2252,
173 L.Ed.2d 1208 (2009)...........

20, 21

In re Murchison, 349 U.S. 133,
75 S.Ct. 623, 99 L.Ed. 942 (1955)

10, 11, 20

Liteky v. United States,
510 U.S. 540(1994).....................

20, 22

Mathews v. Eldridge,
424 U.S. 319 (1976).................... .

9, 10, 18, 19

Nelson v. Colorado,
137 S.Ct. 1249 (2017)................

9, 10, 18

People v. Novak,
30 N.Y.3d 222 (2017).................

20, 31

People v. Ochoa,
1998 Cal. LEXIS 6882 (1998)....

17, 18, 19

Turner v. Rogers,

564 U.S. 431 (2011).................

8, 9, 10

CONSTITUTIONAL PROVISIONS
U.S. Const, amend. V

2, 11, 17, 20

U.S. Const, amend. XIV, § 1

............2, 11

Xlll

TABLE OF AUTHORITIES—Continued
Page
STATUTES
28 U.S.C. § 1257(a)

1

OTHER AUTHORITIES
Brian Vukadinovich,
Courts and Congress Must Protect the
Rights ofPro Se Plaintiffs,
Washington Examiner (2017), available at
https://www.washingtonexaminer.com/
courts-and-congress-must-protect-therights-of-pro-se-plaintiffs................................

11

Debra Cassens Weiss,.
Posner: Most Judges Regal'd Pro Se
Litigants as ‘Kind of Trash Not Worth the
Time’, ABA Journal (2017).............................

12

Lucas Fink,
TOEFL Tuesday. Do Native Speakers Get
Perfect Scores on the TOEFL?,
Magoosh TOEFL Blog, available at https:
//magoosh.com/toefl/2016/toefl-tuesday-donative-speakers-get-perfect-scores-on-thetoefl/.....................................................................

21

Paris R. Baldacci,
Access to Justice is More Than the Right
to Counsel: The Role of the Judge in
Assisting Unrepresented Litigants,
New York Law School (2016)..........................

11

1

OPINIONS BELOW
Petitioner seeks an extraordinary writ of manda­
mus pertaining to the proceedings in the State of
New York Appellate Division, First Department.
The final opinion and order dated November 17,
2019, is included below at App.la. The orders of
the Supreme Court of New York, County of New York,
are included below at App.4a-5a, 8a-12a, 13a-14a,
and 15a-17a.

JURISDICTION
This case has clearly breached the rights of Mr.
Buhannic under the 5th and the 14th amendment of the
U.S. Constitution. Mr. Buhannic has fundamentally
been stolen his property of north of 60% of the company
he created through a mixture of outright corruption
in Delaware where the judge was bought out, Collusion
in the Supreme court of New York and New York appeal
court and exposed to a significant discrimination as a
foreign national and Pro se person and massive due
process issues under Delaware, New York but also sadly
the Federal court system in New York in a way that
effectively is breaching his right to be protected by
due process against these acts.
This Petition for Extraordinary Writ of Mandamus
is filed pursuant to Sup. Ct. R. 20.4(a). This Court has
jurisdiction under 28 U.S.C. § 1651.

2

CONSTITUTIONAL PROVISIONS
U.S. Const, amend. V
No person shall be held to answer for a capital,
or otherwise infamous crime, unless on a pre­
sentment or indictment of a grand jury, except
in cases arising in the land or naval forces, or in
the militia, when in actual service in time of war
or public danger; nor shall any person be subject
for the same offense to be twice put in jeopardy
of life or limb; nor shall be compelled in any
criminal case to be a witness against himself, nor
be deprived of life, liberty, or property, without
due process of law; nor shall private property be
taken for public use, without just compensation.
U.S. Const, amend. XIV, § 1
All persons born or naturalized in the United
States, and subject to the jurisdiction thereof,(are
citizens of the United States and of the state
wherein they reside. No state shall make or enforce
any law which shall abridge the privileges or
immunities of citizens of the United States; nor
shall any state deprive any person of life, liberty,
or property, without due process of law; nor deny
to any person within its jurisdiction the equal
protection of the laws.

3

RULE 20 STATEMENT
A.

Name and Function of Parties to Whom
Mandamus is Sought to be Directed

Petitioner seeks mandamus issued to Judge Fried­
man of the New York Supreme Court, New York
County.
B.

Petitioner seek the following relief:

Mr. Buhannic respectfully requests that this Court
grant the relief requested, based on the US Constitu­
tion to reestablish an environment where due process
exist and is not entirely denied to foreign pro se
litigant as it has been in this case, declare that these
courts have breached Mr. Buhannic constitutional
right to due process and appeal and to:
1. In the New York Supreme Court cases, we
request:
a.

The recusal of Judge Friedman from the case
and a concentration of all actions front of the
single most relevant court in Federal court
but outside of the southern district that has
demonstrated a level of inefficiency and col­
lusion unmatched in modern time with a
really independent judge that can handle a
case rapidly.

b.

An allocation of the case to a relevant Federal
court away from New York based on Diversity

4

c.

A reversal of ALL the judgements of Judge
Friedman who were all determined on a
lack of due process and bias.

d.

The establishment of a parity between all
parties for indemnification and an immediate
reimbursement of the 5 M USD plus of
advancement expenses including interests
since their due date at 19%, that the Company
failed to advance for three years, despite
Mr. Buhannic’s total compliance with the
advancement conditions under Section 4 and
that Mr. Buhannic has incurred and was not
reimbursed for while the other Board mem­
bers were reimbursed illegally.

e.

Damages in the amount decided by the
court for the breach of the indemnification
agreement realizing that this has damaged
the defense of Mr. Buhannic seriously and
allowed the Defendants to destroy his com­
pany that was worth 650 M USD before
that to a value that is 0 today. The bad faith
of the company should be taken into account
while calculating the damages as well as
the hardship endured by Mr. Buhannic who
has seen his life creation, TradingScreen,
being savagely destroyed by a group of Private
Equity racketeers with no skills but to
manipulate a legal system going awry, a few
corrupt Board members and a team of cor­
rupt big law firms that put money front of
integrity in ALL their actions.

f.

Any further relief that the Court might deem
appropriate as the Court deems just and

5
proper like the amount of damages that
should be charged to the Defendants for the
personal moral prejudice created to Mr.
Buhannic over three years.
C.

Why Petitioners Have Filed for Relief in This Court

Petitioners have sought remedy in the New York
Appellate Division and U.S. Court of Appeals for the
Second Circuit. See List of Proceedings. The only
remaining court of higher authority is the Supreme
Court of the United States.

—H§l——
STATEMENT OF THE CASE
Preliminary Statement
This is a straightforward case. Philippe Buhannic
(“Buhannic”) seeks to enforce his constitutional rights
to due process protected by the U.S. Constitution that
have been denied to him in the most horrible manner
by the New York Supreme court whose bias and pre­
judice is so deeply rooted in the system, that they have
breached the constitutional right of Mr. Buhannic as
a foreign Pro se litigant as they consider wrongly
that the constitution does not protect him.
Worse the actors of this farce feel so certain that
they are unreachable that they are going extremely
far in the illegality and of their manipulative actions,
and fear nothing from a system that they feel they
master and can play against a Pro se litigant with no
resource as the system is more interested in protecting
its own faulty members than achieving justice. This

6
is the ultimate in bad faith and insulting to intelligence
and the principles of the U.S. Constitution.
It demonstrates that the system allows the actors
to refuse effectively due process by hiding their, some­
times criminal acts, behind the most stupid presenta­
tion reasons, or just to ignore the rules as demonstrated
in examples outlined in this case.
Worse the litigant has also experienced massive
corruption of the system in the benefit of the big
corrupt law firms Morgan Lewis and Weil Gotschal
which have established in the courts, against discreet
retribution, a network of dependent employees that
will effectively guide the cases their way.
This case is a terrible eyesore on the U.S. legal
system and demonstrate a total lack of principles and
legal respect by all the actors of the U.S. legal system
from lawyers to judges to clerks.

7

STATEMENT OF FACTS
From 1999 until his wrongful termination in late
June 2016, in a clear breach of his employment agree­
ment, in a coup organized by the minority Private
Equity shareholder TCV with 18% of the shareholding
to steal the value of the company unduly, Mr. Buhannic
served as the Company’s CEO and Chairman of its
Board for 16 years. This is a company that he created
from scratch making tremendous personal sacrifices
to create the leader in the Fintech space with his
ingenuity, hard work and money.
Thanks to the corrupt judge Laster in Delaware
he was illegally taken off as CEO and president and
chairman of the Board and denied illegally his rights
as the largest shareholders to elect his representation
and control the company. This criminal decision as it
was “purchased” has allowed the TCV thieves to
effectively buy the Board members that the Plaintiffs
wanted to replace and to control the company with
18% of the shareholding illegally and to wreck the
company to oblivion. Worse the TCV thieves have
manipulated a totally corrupt system, where everything
can be purchased, through the corrupt big law firms
Weil Gotschal and Morgan Lewis and made sure to
deny due process to the Plaintiffs in so many ways
that it should be a benchmark case.
He is still a Board member today and is getting
diluted to oblivion thanks to the efforts of the colluded
and corrupt judges.

8
Thus, in this complaint, Mr. Buhannic seeks a
correction of all the massive due process issues he
has faced and a cancellation of all the decisions that
were based and leveraged on these due process failings
to reestablish a level of coherence in the system that
has proved to be prone to corruption at all levels and
has denied clearly the constitutional rights of the
Plaintiffs and allowed the thieves at TCV to commit
multiple criminal acts without any restraint as the
big corrupt law firms they use “own” the court system.

ARGUMENT
Point I. The Plaintiff Was Deprived of His Due
Process Right to a Fair, Efficient, and Prompt
Trial: After a Total of Three Years of
Absolutely No Action the Judge Has Clearly
Breached All the Due Process Limits of
Incompetence and Due Process to Support Her

Absolute Collusion with the Defendants.
First, Judge Friedman adopted a prejudice against
Mr. Buhannic’s national origin and pro se status
immediately after Mr. Buhannic who was obliged to
move to that status because of the Judge illegal and
negative decision on indemnification, which highly
influenced her fan1 administration of the court’s proce­
dures. In Turner; the Supreme Court opined that
although the right to counsel is not necessary to comply
with the due process, courts should grant alternative
procedural safeguards that would compensate the
absence of a counsel and in all states instruction

9

have been given to judges to support the Pro se
litigants, not to treat them like a well-organized, ex­
perienced, big law firms. Judge Friedman did warn
very clearly Mr. Buhannic against going Pro se despite
forcing him into this status by her unfair decision on
indemnification, where she applied the law differently
to the two parties allowing indemnification for the
defendants but not the Plaintiff, proving again her
collusion with the defendants.!
“THE COURT: Now, Mr. Buhannic, you will
have the right to proceed without counsel in
this action, but you will be held to the same
standards as parties who have counsel, and
that is what I must do. You have already had
two well-known law firms in this case;
Kasowitz, Benson and the Shiboleth law firm.
You, evidently, have not been in agreement
with either counsel. I strongly urge you to
retain counsel to represent you in this matter.
And this is a complicated commercial case,
involving complicated procedural and sub­
stantive issues; and I must hold you, whether
represented or not, to the same standard as
represented parties. While you have the right
to proceed on your own, a case like this is
very difficult to negotiate without counsel.”
Moreover, the inspection of due process clause is
instructed by Mathews test? Thus, it is indispensable
for the judge to consider Mathews three factors before
depriving a party from a procedural safeguard: (l) the
1 Turner v. Rogers, 564 U.S. 431 (2011), at 12.
2 Nelson v. Colorado, 137 S.Ct. 1249 (2017), at 6.

10

nature of “the private interest that will be affected,” (2)
the comparative “risk” of an “erroneous deprivation” of
that interest with and without “additional or substi­
tute procedural safeguards,” and (3) the nature and
magnitude of any countervailing interest in not pro­
viding “additional or substitute procedural requirement[s].”3 Finally, In re Murchison, the Supreme Court
stipulated that “fair trial in a fair tribunal is a basic
requirement of due process.”4
Throughout this case, Judge Friedman blocked
almost every procedural safeguard for Mr. Buhannic
despite being a pro se litigant depriving him from his
due process of law and his right to a fair trial.
First, she disallowed discovery for Mr. Buhannic
and allowed it for defendants. Second, she did not
force his opponent to comply with the court procedures
by disclosing relevant documents and information to
the plaintiff despite Mr. Buhannic giving Judge
Friedman the proof the Defendants were tampering
with evidence. Third, she allowed the defendants to
produce some documents even after Mr. Buhannic
offered the judge a concrete proof that the defendants
tempered with the discovery and were refusing to per­
form a complete discovery. Fourth, she allocated time
unfairly between the parties where the highly paid
defendant lawyers spent hours in oral arguments,
where Mr. Buhannic could barely speak since his Law
firm was terminated. This does not only breach land­
mark Supreme Court cases of due process like Turner,
Nelson, and Mathews, it basically reveals how unfair
3 Mathews v. Eldridge, 424 U.S. 319 (1976), at 11.
4 In re Murchison, 75 S.Ct. 623, 99 L.Ed. 942.

11

and prejudiced was Judge Friedman against Mr.
Buhannic as if she is punishing him for choosing to
be a pro se litigant, a right that he can freely exercise.
Thus, the plaintiff was deprived of his right to a “fair
trial in a fair tribunal” according to the Fifth and
Fourteenth Amendments of the constitution and in
re Murchison case.
Second, Judge Friedman failed to conduct an
efficient administration of judicial matters which
breached the plaintiffs’ due process. The Administrative
Order of the Chief Administrative Judge of the Courts
encourages judges to “make reasonable efforts to facili­
tate the ability of unrepresented htigants to have thenmatters fairly heard.”5 Instead of making reasonable
efforts for Mr. Buhannic to facilitate his pro se litiga­
tion, Judge Friedman blocked every procedural
channel for him. She did not only block his discovery;
she also did not accept his amendment of the complaint.
In fact, the hostility against pro se litigants is not
new; it was thoroughly described by a former pro se
litigant,6 was the subject of criticism by many academic
papers,7 and led one of the judges to retire due to his
dissatisfaction with the way his co-workers treated
5 Administrative Order of the Chief Administrative Judge of
THE COURTS, (B) 12 (2015), available at https://www.nycourts.
gov/rules/comments/orders/A083-15.pdf._
_
“
6 Brian Vukadinovich, Courts and Congress Must Protect the
Rights ofPro Se Plaintiffs, Washington Examiner (2017), available
at https://www .washingtonexaminer.com/courts-and-congress-mustprotect-the-rights-of-pro-se-plairitiffs.
7 See e.g., Paris R. Baldacci, Access to Justice is More Than the
Right to Counsel: The Role of the Judge in Assisting Unrepre­
sented Litigants, New York Law School (2016).

12
pro se litigants.8 One must distinguish between equal­
ity between parties before the court and equity. A
judge holding a big law firm and a pro se btigant on
an equal ground and expressly declaring to do so
according to proceeding transcripts is not equitable.
Rather, it blatantly breaches the procedural due process
under MatheWs test. This is because the failure of a
judge to provide for alternative procedural safeguards
to allow the pro se litigant to stand on equal ground
with the defendant’s law firm deprives the plaintiff of
his ability to entertain the case just for being a pro se,
a right that he can exercise without being punished for
especially when she is the one to force him into pro se.
Lastly, Judge Friedman failed to conduct the
administration of judicial matters promptly. It has
been three years since the case was filed and there is
no progress taking place on the main subject matter
of the case which is his termination and its conse­
quences. Thus, the judge is far away from prompt
despite all the efforts of Mr. Buhannic who literally
begged her not to order stays on every junction. More­
over, in almost 36 months, Judge Friedman had
refused to examine two information demands by board
members who wanted to comply with their fiduciary
duties. By rejecting the issuance of this information
to the Board members when it was totally legal, Judge
Friedman acted as an obstacle to justice. It is worth
noting that she herself recognized the case as simple
when she stated in the first oral arguments session:

8 Debra Cassens Weiss, Posner. Most Judges Regard Pro Se Liti­
gants as ‘Kind of Trash Not Worth the Time’, ABA Journal.

13

“Let’s address the threshold of how these
acts can amount to a fiduciary duty. I have
some reservation about that. How is striking
an employee, as reprehensive as such an act
may be if true, an act that breaches a fiduci­
ary duty?”9
“Is there any case in either New York or
Delaware which treats a physical act of that
kind as a breach of fiduciary duty?”10
“And the answer is no.”—“that is because if
this thing is true, it is a bad thing, but it is
not a breach of fiduciary duty.”It
Thus, Judge Friedman had failed to dispose of
legal matters in our case fairly, efficiently, and
promptly which breaches the constitutional right of
the plaintiff to due process and fair trial. Judge
Friedman has once again colluded with the Defendants
as she clearly knew that they had a very bad case on
the key issues and through her multiple unreasonable
delays imposed on the due process has allowed the
Defendants to destroy totally Mr. Buhannic firm
TradingScreen that he created over 16 years and to
steal all the money that was accumulated by Mr.
Buhannic (39 M $ of cash were replaced by 30 M $ plus
of debt) and by allocating to themselves millions of
stocks without any investment or efficient work. These
events would have not been made possible without the
significant delays, more than 24 months in total that
9 Transcript for the proceedings on Jan 11th, 2017, at 24.
10 Id., at 25.
11 Id., at 25.

v

14
can be attributed to the systematic delaying of Judge
Friedman despite the pleading of the Plaintiffs. This
was done by the judge to support her collusion with
the Defendants.
The last twist of her collusion is even worse. Judge
Friedman has taken away the protection against losing
the majority which was in place against the TCV thieves
in a preliminary injunction granted by ... . Judge
Friedman! She now has exercised her illegal power
as this case should be in any case front of Federal
court because of Diversity and has totally changed
her mind to feed her collusion with the defendants!
This is another completely unacceptable breach
in due process as Judge Friedman is exercising
fundamentally. retaliation against Mr. Buhannic as
he refused the collusion she has demonstrated with
the Defendants. A judge by Federal rules and New York
rule must maintained a balanced and fair approach
and avoid ex-parte communication with either party.
Judge Friedman clearly feels she can do anything she
wishes and feels due process is a ridiculous concept.
This case started in the New York court system on
11 July 2016. We are more than three years later
and despite the Plaintiffs being clearly the owners at
70% plus they have been unable to exercise their
corporate rights. Worst the employment issues that are
extremely simple, and that are in every of the 25
countries I have worked in, always prioritized as
they have a serious negative impact on people. Have
not even been read by the judge in a clear case of
collusion with the Defendants and in a flagrant
refusal to apply the New York judge rules and due
process rules in New York or Federal.

15

This has created a situation where the judge has
put the Plaintiffs at extremely high risk to never
receive the money they are owed by the company as
the company is in effective bankruptcy going from
one loan to another. The plaintiffs have not been paid
their retirement for more than 10 years which is a
criminal offense under ERISA, have not been paid
their 2016 bonus, have not received their fully vested
stocks and numerous issues in clear infringement of
his contract. Judge Friedman in her complete collusion
and discriminatory approach against the Plaintiffs
national origin and pro se status has made sure that
no decision was taken even the most trivial ones to
advantage her collusion partners. She is most likely
also getting paid for that in dirty money untrace able.
This is in clear opposition of the basic concept of due
process as the judge does not have any authority on
the timing of these resolutions. A judge is obliged to
be effective and efficient in its handling of a case.
Here even trivial decisions like getting information
from the company to exercise the rights and obligation
of control for board members to discharge themselves
of their fiduciary duty, have been totally ignored by
Judge Friedman. Twice the Plaintiffs made some
request for information that the judge decided to
completely ignore and has not even answered after
more than two years in clear breach of due process
and judge rules, allowing the Defendants through
this to outright steal assets from the company
unchecked. The personal criminal responsibility of
the judge here is fully engaged as she refused to
apply the rules and a very well-established
jurisprudence in Delaware. It is a major due process
breach as the New York judge rules and the federal

16

judge rules are requiring the judges to be efficient
and as rapid as possible. In this case Judge Friedman
has been voluntarily, as slow as she could to favor
the dismantling of the company by outright collusion
with the Defendants.
Point II. Refusal of Discovery Rights Without Any
Justification While Allowing the Discovery to
the Other Side.
One of the most fundamental right in any juris­
diction is the right to get discovery. This right is
protected by the Constitution and is granted to all
parties. As part of the outright collusion between the
Judge Friedman and the Defendants, Judge Friedman
allowed a full discovery to the Defendants but denied
it entirely to the Plaintiffs. The Plaintiffs when they
went pro se had communicated a very clear plan of
discovery that would prove the criminal enterprise of
racketeering that TCV had organized. To achieve this
a few key witnesses were necessary. When the plaintiffs
were starved for resources by Judge Friedman collu­
sion with the Defendants who refused without any
basis the indemnification they were entitled to, they
had to go pro se. When they went pro se they requested
the discovery they needed to prove their points. Judge
Friedman realizing that the plaintiffs will prove their
points with these witnesses and getting her instruction
from the Defendants through ex-parte communica­
tion, refused the discovery plan without any basis
leaving them with no valid discovery while the Defend­
ants had a full discovery. Worse she used the fact that
Philippe Buhannic had offered many times to testify
and Morgan Lewis refused to take his deposition, as
much as staying in their lobby for hours in two occa-

17

sions. And once again colluded with an ex-parte com­
munication to use the fact that Mr. Buhannic starved
for resources could not change his ticket back to Europe
and had a flight at 5 despite Mr. Buhannic offering to
come earlier or to come another time to complete if
necessary a totally unnecessary deposition as he had
already said everything while the Plaintiffs could
were refused even the most simple deposition to be
done! Judge Friedman in one of the most bizarre and
unfair decision if not for her total discrimination and
collusion, decided to cancel her own preliminary injunc­
tion that she took before based on a false no show for
Mr. Buhannic’s deposition organized by Morgan Lewis
the corrupt law firm that pays her who refused to
take his deposition. This, flagrant denial of justice and
due process was reported to the New York Appeal
court who refused once again to take the appeal.
We have shown the discovery requests of the plain­
tiffs which were totally in the framework requested
. by the judge (10 witnesses, etc.) and the refusal of
the discovery by the judge in her order, showing her
collusion and discrimination and refusal to apply the
law.
The Due Process Clause of the Fifth Amendment
simply stipulates that no person shall be “deprived of
life, liberty, or property, without due process of law.”12
In People v. Ochoa, The Supreme Court of Cali­
fornia opined that: “[n]ot every discovery violation is a

12 Fifth Amendment of the U.S. Constitution.

18

due process violation—only those that undermine con­
fidence in the outcome.”13
Moreover, the U.S. Supreme Court laid down
the test to measure the procedural due process in
MathewsM Following this case, it became indispen­
sable for the judge to consider Mathews three-factortest before depriving a party from a procedural safe­
guard: (l) the nature of “the private interest that will
be affected,” (2) the comparative “risk” of an “erroneous
deprivation” of that interest with and without “addi­
tional or substitute procedural safeguards,” and (3)
the nature and magnitude of any countervailing interest
in not providing “additional or substitute procedural
requirement[s].”15
In the case beforehand, the plaintiff was deprived
of his right to discovery before the New York Court.
In the early stages of the case, the plaintiff was
represented by a law firm before choosing to represent
himself pro se. Both counsels agreed on a fixed deadline
for discovery. However, when the plaintiff noticed
negligence on the side of his law firm to comply with
the discovery deadline, he appeared in court and
decided to represent himself pro se after terminating
his relationship with the law firm. This took place a
few days before the deadline of discovery. The judge,
in our case Justice Marcy Friedman, did not grant
any extra time to the pro se litigant to exercise his ~
discovery rights. Instead, she was late in declaring
13 People v. Ochoa, 1998 Cal. LEXIS 6882 (1998), 30.
14 Nelson v. Colorado, 137 S.Ct. 1249 (2017), at 6.
13 Mathews v. Eldridge, 424 U.S. 319 (1976), at 11.

19
him pro se until the deadline passed. As a result, the
plaintiff was deprived of his right to discovery. Accord­
ing to Mathews test, Judge Friedman breached the
procedural due process granted by the constitution for
the following reasons. First, the private interest of
the plaintiff that will be affected in this case is very
high, namely: he will be at a higher risk to lose his
multi-million corporation that he built from scratch if
he did not have discovery. Second, Judge Friedman
did not adopt any additional or substitute safeguards
to mitigate the risk of the erroneous deprivation of
procedure by extending the discovery deadline even
for a few days. In contrast, she was late in declaring
the plaintiff a pro se which made him miss the deadline
that he tried to comply to. Finally, the nature and
magnitude of the contravening interest in not providing
additional safeguards was trivial. A few weeks delay
in the proceedings is indeed trivial compared to a pro
se litigant losing his right to discovery. It complies
more with the due process that a judge extends the
deadline for discovery instead of conducting a very
fast unfair trial that would be far away from justice
and equality.
It is worth referring to People v. Ochoa as a per­
suasive precedent to our case. In People, the California
Supreme Court provided that a deprivation of discov­
ery that undermines confidence in the outcome of the
case constitutes a breach to the procedural due process.
In our case, a French pro se litigant who was deprived
from his right to discovery would surely have an
undermined confidence in the outcome of the litiga­
tion. This is because litigation in the U.S. is adver­
sarial in nature and giving one party a right to dis-

20

covery and depriving another, necessarily means that
it is a one-sided litigation that does not lead to justice.
Point III. A Clear and Demonstrated Prejudice
and Bias in Breach of the Fifth Amendment.
The U.S. Supreme Court, in In re Murchison, stipu­
lated that the right to an impartial jurist is a “basic
requirement of due process.” 16 Further, in Caperton,
the U.S. Supreme Court found that the federal con­
stitutional jurisprudence guides courts to assess the
existence of a “serious risk of actual bias ” by employing
objective perceptions and bv considering all the circum­
stances alleged. I7 In People v. Novak, the New York
Court of Appeals opined that “not only must judges
actually be neutral, they must appear so as well.” 18
In Liteky, the Supreme Court decided that “opinions
formed by the judge on the basis of facts introduced
or events occurring in the course of the current
proceedings, or of prior proceedings, do not constitute
a basis for a bias or partiality motion unless they dis­
play a deep-seated favoritism or antagonism that
would make fair judgment impossible.”19 Finally, in
Berger v. U.S., the U.S. Supreme Court found that the
Judge was prejudiced against the defendant’s national

18 In re Murchison, 349 U.S. 133, 136, 75 S.Ct. 623, 99 L.Ed.
942 (1955); see also People v. Alomar, 93 NY2d 239, 245, 711
NE2d 958, 689 NYS2d 680 (1999).
11 See Caperton v. A. T. Massey Coal Co., 556 U.S. 868, 884,
129 S.Ct. 2252, 173 L.Ed.2d 1208 (2009).
18 People v. Novak, 30 N.Y.3d 222.
19 Liteky v. United States, 510 U.S. 540, 4.

21

origin—Germany—on the aftermath of World War I,
and disqualified the judge on that ground.20
Judge Friedman had a prejudice and bias against
Mr. Buhannic’s national origin. She made fun of Mr.
Buhannic’s French accent and acted as if no reasonable
English-speaking person would be able to understand
him unless he writes down what he is saying. According
to Capertod% objective standard, her narcissistic and
demeaning approach to Mr. Buhannic was not justifi­
able and amounted to a prejudice against Mr. Buhannic.
For instance, in one hearing she asked Mr. Buhannic
to spell his address which was already in file and to
write it down like if he could not spell right. Consider­
ing all the circumstances, Mr. Buhannic did not only
study at NYU (which requires the highest scores of
TOEFL for admission-scores that some Native Ameri­
cans find challenging to meet if they sat for the
test2l), he also held conferences and gave speeches in
English around the world for many decades. Further,
he taught in several languages including English and
had obtained multiple 01 visas for extraordinary
ability. Thus, such a demeaning approach towards Mr.
Buhannic and his French accent does not find any basis,
from an objective point of view and taking into account
all the circumstances, except on discrimination and
prejudice against his national origin which is a breach

20 Berger v. United States, 255 U.S. 22, 65 L. Ed. 481, 41 S.Ct. 230
(1921), 255.
21 Lucas Fink, TOEFL Tuesday: Do Native Speakers Get Perfect
Scores on the TOEFL?, Magoosh TOEFL Blog, available at
https://magoosh.com/toefl/2016/toefl-tuesday-do-native-speakersget-perfect-scores-on-the-toefl/.

22

to his due process right to have a fair trial admin­
istered by an impartial judge.
Further, Judge Friedman prejudice towards Mr.
Buhannic’s national origin is analogous to the Berger
v. U.S. Case.22 In Berger, the Judge was disqualified
on the ground of bias for stating: “One must have a
very judicial mind indeed not to be prejudiced against
the German-Americans in this country. Their hearts
are reeking with disloyalty.”23 Similarly, in this case,
Judge Friedman displayed a biased antagonistic
behavior towards Mr. Buhannic only because he is
French, has a slight French accent, and defending
himself pro se. Thus, it is indeed a breach to his due
process right to have a judge who is biased against
foreigners and pro se litigants to conduct proceedings
of a French pro se litigant. Indeed, Judge Friedman’s
attitude in the court room displayed a deep-seated
favoritism to the defendant’s counsel and antagonism
to Mr. Buhannic that would make a fair judgment
impossible under Liteky.
Moreover, Judge Friedman colluded with the
defendants. In one hearing, she called Mr. Buhannic’s
para legal and questioned him relying on ex parte
communication with the Defendants, otherwise she
would have no chance to know that a gentleman sitting
at the last bench in a public court room was the
plaintiffs para legal. Further, she allowed only two
witnesses from Mr. Buhannic’s ten-witness list. The
selected two witnesses were the only witnesses who
could not demonstrate the coup that took place in
22 Berger, 255 U.S. 22, 65 L.Ed. 481, 41 S.Ct. 230 (1921), at 255.
23 Id.

23

TradingScreen. This makes it obvious that she select­
ed these witnesses upon information received from
Morgan Lewis Law Firm, otherwise she would not be
able to select the only two witnesses, from a list of
ten, who could not support the Plaintiffs interests, as
she does not know them. This case is also about the
massive discrimination the Plaintiff has endured with
Judge Friedman based on his national origin and Pro
se status that destroy any basis for due process. At
the beginning, when the plaintiffs could afford the
assistance of expensive law firms as they were supposed
to be entitled to a very wide, indemnification, Judge
Friedman behave rationally. She granted almost
immediately a preliminary injunction as she stated
after reading the facts from the lawyers, without
knowing the Plaintiffs, that the case was an easy
case and the defendants had no points. She even
ridiculed them on their attempt to mix fiduciary duty,
the only way not to apply a very protective employment
agreement and the facts. These preliminary injunc­
tion transcript is at App.88a.
Then when she started to realize that the defend­
ant was French, she started immediately to discrimi­
nate against him in every possible way and worse to
leverage her position and collude with/the Defendants
badly, establishing and totally unacceptable ex-parte
communication channel with the Defendants corrupt
lawyers Weil Gotschal and Morgan Lewis to make
them win the case without any valid argument. She
also pushed the Plaintiffs to go pro se unfairly by
refusing to even read the indemnification agreement
which is very clear. She not only starved the financial
resources of the plaintiffs but as reflected in the
unfortunately heavily doctored transcripts, but also

24

prohibited the plaintiffs to even defend themselves
by prohibiting them to speak more than five words
when the defendants could perorate for hours based
on his supposed French accent! Mr. Buhannic is one
of the most sought-after speakers in all conferences
in the world and has taught PHD level classes at
multiple schools in English. A complete farce that shows
the denial of due process and the discrimination that
the plaintiffs have endured and the amazingly obvious
collusion of Judge Friedman with the defendants.
Clearly she wants a cushy job when she retires at one
of these corrupt law firms.
There is a mountain of evidence in the doctored
transcripts and the various cases. That it was difficult
to choose from. We have put in the appendix some of
the most striking cases that shows a complete disregard
for due process the possibility to defend a case and
impartiality are totally part of this due process guar­
anteed by the constitution.
Accordingly, Judge Friedman is in breach of
Section 100.3 (B) 4 for being prejudiced and biased
against Mr. Buhannic as a French national and a pro
se litigant leaving him no room to exercise his due
process right under the constitution.
Point IV. Refusal of Modification of Complaint
Despite an Obvious Right to Do It.
At the same time and in the same order the court
through Judge Friedman, applying one more time her
total collusion with the Defendants refused to the
Plaintiffs, refused the Plaintiffs to amend their com­
plaint in an obvious denial of justice and due process.
The background was simple and explain why this

25

modification was necessary. When the plaintiffs had
to go pro se, once again because of the collusion of
Judge Friedman and her desire declared to the
lawyers in her back room that she wanted to starve
the defenses of the plaintiffs, the plaintiffs went pro se
and reviewed the work of the lawyers on the complaint.
They discovered major inconsistencies, major missing
elements that were key for the court to be informed
and for justice to be rendered. Therefore as it is their
absolute right under due process, they requested to
change the complaint and sent a complete, much better
complaint. As the complaint was making the situa­
tion of the Defendants much riskier, and solid for the
Plaintiffs, Judge Friedman in total illegality refused
to accept the modified complaint.
We have put at App.8a-12a the order denying the
modified complaint and the refusal of Judge Friedman
to accept it. It is again and absolute and unjustifiable
denial of justice and due process.
Point V. A Systematic Doctoring of Transcripts
and Refusal by Administrative Judge to
Correct the Transcripts Breaching Due
Process Totally.
Judges are supposed to protect evidence and not
manipulate the evidence for their purpose. In the
case of Judge Friedman we have faced a judge that is
systematically tempering evidence to serve her bias
and hidden from light purpose. We have without
authorization and illegally taped every proceeding
we had with judge Friedman and we have also all the
transcripts. She is famous in the court reporter com­
munity to be the judge asking for most modifications
and asking to.erase tapes. In our case she has tried to

26

hide her patent bias and discriminatory approach from
view by third parties by erasing the compromising
statements she made and taking entire Plaintiff state­
ments out of the transcripts. The comparison between
the transcripts and the real discussion is damning for
Judge Friedman.
Judge Friedman has created new grounds in
denial of Due process by doing absolutely what she
wanted to do without any control and being fully
protected by a corrupt system of “Buddies” as despite
being fully informed the Administrative judges did
nothing despite the proofs given.
Given an act like that, an investigation on the
potential corruption of Judge Friedman should be
started if there was any disciplinary power existing
in the New York court system. There is none as we
will see. When the Plaintiffs realized the heavy doctor­
ing of the transcripts by comparing their recordings
and the published transcripts they confronted the court
reporters. These court reporters all agreed that the
transcripts had been rewritten by Judge Friedman
and that she was famous for that at the court. Just to
summarize the facts, first Judge Friedman collude
with one side, potentially for corruption, then she pro­
hibits one side to speak, then she rewrites the tran­
scripts to feed her collusion and support her decisions.
If this is due process . . . the plaintiffs are the Pope.
To keep things short we have selected the last
case that exemplifies not only he collusion, but the
corruption of the entire New York court system and
the absolute denial of due process and the total
absence of control on the failing judges committing
criminal acts like destruction of evidence.

27

In the last session with Judge Friedman the
plaintiffs decided not to participate in this masquerade
and came into the Session just to read a statement
and leave as the judge prohibits them to speak any
way arid systematically demean them. They did just
that. They spoke first as Plaintiffs, read their statement
and left. As shown in the Appendix L the statement was
very clear and created issues for Judge Friedman. In
the same Appendix M we are showing the transcript
of the session that does not include the statement,
the only words that the plaintiffs did pronounce and
build an illusory session that never existed. It is
theater or Hollywood. A major blow and insult to due
process. But things get even worse. Outraged by this
rewriting of history and the manipulation of evidence
by the judge, the Plaintiffs sent a complaint to rectify
the transcripts and for the statement they made to
be reflected at the Administrative judge at the New
York supreme court, the body in charged normally to
have the rules for judges applied in New York Courts.
As their order show their main job is to deny due
process and solid evidence and to protect corrupt
judges from issues in a “Buddy-Buddy” system dramatic
for justice, due process and the people of New York.
This order validates the falsification of evidence done
by Judge Friedman and takes no action. Unheard of
in countries like Nigeria, Brazil or Zimbabwe where
due process is better protected than in New York! An
amazing feat!

28

Point VI. A Systematic Ex-Parte Communication
and Collusion Between the Defendants and
the Judge Creating a Due Process Issue on
Impartiality, as the Main Objective of the
Court Was to Put Mr. Buhannic in a Starved
Situation in Terms of Resources.
Ex parte communication with one of the parties
is totally prohibited in any justice rule book and in
particular in New York but also in federal rule book.
During the entire process Judge Friedman has
maintained an unauthorized ex-parte communication
channels with the two corrupt legal firms Weil Gotschal
and Morgan Lewis.
This ex-parte communication reached its peak
multiple times as confidential information was leaked
to the law firms to advantage them in advance of the
Plaintiffs. However it reached a peak in a very telling
incident that Judge Friedman created. As pro se
without any resources as Judge Friedman allowed
the Defendants to be fully indemnified and advanced
the legal fees while the plaintiffs despite being on the
same case and with the same agreement and without
any board authorization were getting fully indemnified.
A complete parody of justice organized by Judge
Friedman to starve the defenses of the Plaintiffs in
complete collusion with Weil Gotschal and Morgan
Lewis the two corrupt law firms on the other side.
Therefore the plaintiffs could only afford para legal
help from students from NY law schools. I had such
an intern, called Adeolu Sunday from Nigeria, already
a full-time lawyer in his country, paid 15 USD an
hour for para legal work, as he never worked on a
brief or on any filing as the plaintiffs were doing all

29
that themselves. Because he helped me I wanted him
to understand the U.S. system and one day where I
was presenting my case I did ask him to join and to
be in the public. When we arrived in court I went
inside alone, and I was told by the clerk that the
court was late and instead of starting at 11:30 we
would start at 2:00 PM. I took Adeolu for lunch and
at that time nobody in court knew that I was with
him. Not a clerk, not the judge nobody. When we came
in at 2:00 we came at different time and while I settled
on the Plaintiffs spot he settled in the back of the
jury with 3 to 5 other persons. When Judge Friedman
came in and after making the roll call she zeroed in
on him and asked to come to the bar. Judge Friedman
had no way to know this was my paralegal if she had
not been informed by Morgan Lewis who saw him. She
then started to attack him and went as far as
threatening him very badly to prohibit him to take
the bar exam if he continued to help me. Totally shocked ’
and very anxious about his future he resigned on me
that night. It is so great to face an impartial, not
conflicted judge!
Point VII. Judge Friedman Prohibited the Plain­
tiffs to Present His Case Based on His
Supposed Accent and Allowed the Defendants
to Talk for Hours When the Plaintiffs
Were Fundamentally Prohibited to Present
His Case.
This is clearly presented by the Transcripts despite
their heavy doctoring. In a phone session Mr. Buhannic
tried to speak and was totally prohibited to speak. In
another one he was allowed to state his name was
forced to write down his address and was prohibited

30

to speak a word when the other side was allowed to
speak for 45 minutes, a real balance in the treatment
of parties and a real help to a pro se litigant, as he
could not defend at all his positions. The breach of
due process is so pervasive and complemented by the
heavy doctoring of the transcripts after the facts that
it is almost funny. It looks like a cartoon with a crazy
judge. But it is not funny as this judge has authorized
fundamentally the theft of a company of 650 M USD
of value.
Point VIII. Judge Friedman by Not Acting Has
Allowed the Property of the Plaintiffs to Be
Ransacked, Stolen, and Taken with No Due
Process in Clear Contravention with the U.S.

Constitution.
She has also allowed the complete mismanagement
of the company as technology company are very fragile
and its destruction for no reason but her absolute
collusion and prejudice against the nationality and the
pro se status of the plaintiff.
A fintech company is much more sensitive to issues
than a steel or a chemical company. There is no oli­
gopoly to protect them and the stealing of ideas goes
very fast. You need to be on top all the times. To
innovate, to manage efficiently and to keep the trust
of your clients. Judge Friedman despite being aware
of this by our papers that stated that quickly has
made sure to no do anything but delay everything.
Despite our constant reminder and our requests mul­
tiple to not delay anything to the process she has added
on her own, carrying therefore the full responsibility
of her actions as illegal and outside the rule book for
judges. She has added close to two years of stay for

31

no reason but her outright collusion with the Defend­
ants most likely for money, as demonstrated in the
case we had at the New York appeal court as it
seems a tradition at the New York court to be paid by
the big law firms. Not only this is a breach of the con­
stitution, but this is a breach to the amendments that
guarantee due process in case of seizure of property.
Here Judge Friedman has fundamentally and practi­
cally helped private thieves to steal a property owned
by the Defendants at 70% and not only protected them
by her complete inaction but funded their effort by
allowing the legal fees to be paid by the company and
prohibiting the indemnification of the Plaintiffs. She
has authorized, subsidized and validated through her
complete incompetent inaction an illegal seizure of
property by a group of financial and market crooks
with a heavy criminal record. Instead of defending the
honest and integrity people, she joined forces totally
with the crooks and powered their actions in a fla­
grant breach of due process and the U.S. Constitu­
tional rights of the plaintiffs.
Point IX. Refusal of the Judge Recusal for
Partiality and Discrimination Ruled by the
Judge Being Judge and Party in Flagrant
Denial of Due Process .
In another laughable farce and against logic,
well established precedent like in People v. Novak
and just the law, Judge Friedman in a clear breach of
due process, despite being warned to the negative
precedents in terms of due process, decided to rule on
the action of the plaintiffs on her recusal for bias and
discrimination. Judge Friedman was judge and party
and strangely rules that she could stay in charge of

32

the case despite obvious proof she had totally colluded
with the defendants. She was supposed to deliver the
case for money or advantages (position before
retirement, tickets, etc.) most likely to the corrupt
law firms Weil Gotschal and Morgan Lewis. She could
not leave another honest and independent judge rule
on her absolute and total collusion without taking risks.
What is amazing is that the system of the New York
courts with the numerous precedents and especially
very recently, once again establishing very clearly
that defending its own members was its key goal, let
her do that. The fact that a judge rule on its own
recusal is a well-established breach of due process
and allows a judge that is known to manipulate and
forge transcripts, to destroy evidence and have exparte communication with one side to hide her tracks
and not suffer any consequences for her unacceptable
misdeeds. On top the administrative judge Deborah
Kaplan supports her fully in her endeavor on a “Buddy
to Buddy” system and manipulate the law not even
smartly to justify the unjustifiable corruption of the
process. The crooks policed by the crooks in the
interests of the crooks.
Point X. It Is Important Also to Note That the
Presence of Morgan Lewis in the Case
Representing the Interests of the Thieves Is
Unacceptable. This Is Also a Breach of Due
Process.
Morgan Lewis was representing Mr. Buhannic
personally with issues with his coop or inheritance
but also was the representation of the company against
the attacks of TCV from 2010 to 2016 and their main
contact for that was obviously Mr. Buhannic. It is

33

proven thanks to the very few documents recuperated
in Delaware, thanks to judge Laster manipulation and
corruption, that Morgan Lewis was effectively attacking
Mr. Buhannic while being his representation legally
with the other corrupt law firm Morris Nicholls in
Delaware who went as far as threatening Mr. Buhannic
if he did not surrender to TCV diktat. All this has
been reported endlessly to Judge Friedman and should
have prohibited Morgan Lewis to cash in in on the
fees and participate any further in the case as they
should have been disbarred for their criminal actions
if there was a vague discipline in the lawyers
community and in any case they were so conflicted
that they should not participate. But the colluded
judges looking for cushy jobs for the end of their not
illustrious career did not react to the demands of the
Plaintiffs to prohibit Morgan Lewis to participate
despite the obviousness of the decision for due process.
This situation where a corrupt lawyer who criminally
was attacking its client while representing him and
having access to all his confidential information but
being effectively working for the thieves at TCV is an
unbelievable breach in due process that the colluded
judge Friedman have allowed to happen for three long
years! An unbelievable disdain for due process and a
feeling of untouchability by the corrupt law firm
Morgan Lewis as they have rigged the case by cor­
rupting or colluding all the judges on the case.

34

REASONS FOR GRANTING THE WRIT
These issues raised in this case are critical to the
effective functioning of the legal system of the United
States. Due process needs to be enforced and need to
be independent from who you are and as a foreign Pro
se litigant you should be entitled to it as much as a
big corrupt law firm working for fees. Today between
the corruption, the nepotism and the outright bias of
numerous levels in the system this is not guaranteed,
and it is critical to the wide public and the economy
that these issues are fixed in the spirit and law of the
U.S. constitution. To no act will disqualify the U.S.
legal environment for foreigners definitively as the
bias and corruption was so pervasive and organized
that foreign entrepreneurs will select other environ­
ments to create the future.
There is nothing more important than to fix a
system that has been selling itself to partisan interests
and is colluding with some of the big law firms to
give them an undue power that is challenging the most
basic rules of Democracy.
This court must use this case where we have
demonstrated an inordinate bias and prejudice as well
as numerous cases of outright corruption, collusion
and numerous dysfunctions of the system that makes
it so faulty that outside of providing a good living to
the people involved, mostly lawyers, it has failed
totally the general public in rendering justice.
This court is facing a choice here: Act quickly
and fairly and demonstrate that all the manipulations

35

stop at its door and that it represents the last defense
of Democracy, Justice and Due process and reestablish
decisions that make sense or just let go and accept
that the system is now controlled by people that can
pay big corrupt law firms to manipulate the process
and become an accomplice of the destruction of the
legal environment created by the founding fathers.
This court is the last hope for justice but also more
importantly to insure that the financing of innovation
does not fall definitively in the hands of crooks
equipped with big law firms and a strong pull in the
lower courts where they managed to convert the most
protective indemnity agreement into a useless piece
of paper through collusion, manipulation and outright
corruption. Worse the lower courts also prohibited
the indemnitee to benefit from due process and his
appeal rights protected by the constitution. There is
no mistake here, this is a benchmark case where the
future of innovation financing will be decided that
will impact generations to come. Accepting that these
illogical decisions, going against almost every case
law existing in all jurisdictions, stay in force will
damage definitively the legal environment at a huge
cost to society and will ensure that crooks well equipped
with corrupt lawyers run the show at the expense of
the creators, entrepreneurs and value generator. It is
a seminal case that should be treated by the highest
court in the land to give still hope to honest people
that the dream of a better system that started in
1776, and for which my ancestors died for in Chesa­
peake Bay and Yorktown, there were more French
casualties than American casualties in both cases,
still exist in some heads, even remotely.

36

“The true administration of justice is the
firmest pillar of good Government”
Georges Washington

CONCLUSION
The collusion of the lower court with the Defend­
ants of Judge Friedman as demonstrated heavily by
the proceedings, even doctored by the judge itself, has
denied clearly due process to Mr. Buhannic in an
incredible number of cases like in ruling on her own
recusal, given her bias and collusion, and has taken
her decisions with only one intent: to exercise her
bias and prejudice against Mr. Buhannic national origin
and his status as Pro se. Judge Friedman forced him
to represent himself Pro se and has manipulated the
entire process through ex-parte communications and
collusion to hurt Mr. Buhannic to apply her bias
against his nationality and Pro se status. Her actions
are a litany of what not to do in terms of due process
and the New York Appeal court has decided against
all logic and the law to support her in this endeavor
and has demonstrated a level of outright corruption
not common in modern times anywhere in the world.
Both courts have erred against basic principles of
justice, the constitution, the agreements and have
manipulated their way to try to hide all their attempts
to circumvent due process rules as demonstrated in
this filing.
To sum up, Mr. Buhannic has been denied totally
his U.S. Constitutional rights to due process, to appeal

37

and to fairness by a New York court system more
interested in denying his rights to a foreigner and
protecting its members from the consequences of their
illegal and anti-constitutional acts than exercising a
fair justice. This Court should grant the petition for
writ of certiorari.
Respectfully submitted,

iCVWvC r

Philippe Buhannic
Petitioner Pro Se
Aventura 318
Route des Creux 100
1936 Verbier Switzerland
(917) 716-3542
December 23, 2019

